U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

December 17, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re:

Cedric L. McDonald v. United States of America,
S.Ct. No. 19-557

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on October 29, 2019. Although
the government waived its right to file a response, the Court has requested that a response be
filed. The government's response is now due on December 23, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including January 22, 2020, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0557
MCDONALD, CEDRIC L.
USA

STEVEN J. DRAY
DEFENSE APPELLATE DIVISION
U.S. ARMY LEGAL SERVICES AGENCY
9275 GUNSTON ROAD
FORT BELVOIR, VA 22060
703-693-0725
STEVEN.J.DRAY.MIL@MAIL.COM
DAVID A. GOLDENBERG
SIDLEY AUSTiN LLP
1501 K STREET, NW
WASHINGTON, DC 20005
202-736-8000
TIMOTHY GRAMMEL
DEPART OF THE ARMY
U.S. ARMY LEGAL SERVICE AGENCY
TRAIAL DEFESE SERVICE
9275 GIJNSTON ROAD
FORT BELVOIR, VA 22060-5 546
703-693-0362
TIMOTHY. GRAMMEL.CIV@MAIL.MIL
JEFFREY T. GREEN
NORTHWESTERN SUPREME COURT
PRACTICUM
375 EAST CHICAGO AVE.
CHICAGO, IL 60611
312-503-1486

